                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-IB-13-07                                  Office of Inspections                                   January 2013




                     Inspection of
          the Broadcasting Board of Governors




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents

Key Judgments                                                                          1
Context                                                                                3
Executive Direction                                                                    5
Structure                                                                              5
   Strategic Supervision versus Operational Management                                 5
   Conflict of Interest: Broadcasting Board of Governors Board and Corporate Boards    7
   Challenges of a Part-Time Board: Attendance and Vacancies                           8
Internal Governance Issues                                                             9
   Meeting Management                                                                  9
   Nondisclosure and Confidentiality                                                  10
Board Dynamics                                                                        11
   Board Relations with International Broadcasting Bureau Staff                       12
   Board Relations with Federal Broadcast Entities                                    13
Need for Legislative Change                                                           15
Board Administrative Areas                                                            16
   Travel                                                                             16
   Time and Attendance Review                                                         17
   Equal Employment Opportunity and Ethics                                            17
   Representational Funds                                                             18
List of Recommendations                                                               19
List of Informal Recommendations                                                      20
Principal Officials                                                                   21
Abbreviations                                                                         22
Appendix A: Organizational Chart                                                      23




                                      iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   U.S. Government broadcasting is characterized by journalism of the highest caliber and a
    widespread devotion to supporting democracy and freedom. This ongoing achievement is due
    to the commitment of the broadcast entities and professional staff.

•   The Broadcasting Board of Governors (BBG) is also committed to the goals of U.S.
    international broadcasting but is failing in its mandated duties, including implementation of
    key aspects of its 5-year strategic plan. The Board’s dysfunction stems from a flawed
    legislative structure and acute internal dissension.

•   The Board is composed of nine part-time members, including eight private citizens who carry
    the title of Governor and the Secretary of State (ex officio). A part-time Board cannot
    effectively supervise all U.S. Government-supported, civilian international broadcasting. A
    chief executive officer (CEO) could coordinate the operational aspects of the broadcast
    entities and their support structure.

•   Although the legislation establishing the responsibilities of the Governors is clear regarding
    the boundary between supervision and day-to-day management, individual Governors have
    interpreted the law differently and determined their own fiduciary responsibilities, which has
    in turn impeded normal management functions.

•   Board dynamics are characterized by a degree of hostility that renders its deliberative process
    ineffectual. Board meetings are dominated by one member whose tactics and personal attacks
    on colleagues and staff have created an unprofessional and unproductive atmosphere.

•   Chronic vacancies and absences of Board members threaten the quorum required for the
    Board to act, limit the diversity of perspectives brought to discussion, and put at risk the
    bipartisan nature of the Board.

•   The Board’s bylaws and self-adopted governance policies are inadequate to govern
    appropriately the conduct of Board business.

•   The system of having BBG Governors serve concurrently on the corporate board of the
    grantees creates the potential for—and, in some cases, actual—conflict of interest, as
    perceived by many and gives rise to a widespread perception of favoritism in Board
    decisions.

•   A comprehensive travel policy that relates Board travel to strategic objectives and followup
    actions should be implemented.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected. The inspection
took place in Washington, DC, between September 10 and November 19, 2012. (b) (5)

                                        1
                           SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED

(b) (5)




                       2
          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
         The BBG is an independent Federal agency 1 that oversees all U.S. Government-
supported, civilian international broadcasting. Its mission is to inform, engage, and connect
people around the world in support of freedom and democracy. The BBG’s fundamental
objective is to advance U.S. foreign policy by providing an example of free press and free media
to countries where such freedom does not exist and to represent the United States, its people, and
its policies. The “Broadcasting Board of Governors” also serves as the name of the governing
body. The BBG Board is a nine-member, part-time, bipartisan body of eight private citizens
appointed by the President and confirmed by the Senate, as well as the Secretary of State (ex
officio), that serves as a collective head of agency. Of the nine Board members, only eight
private citizens carry the title of Governor.

       The BBG oversees five organizations that represent varied legal and organizational
frameworks (see appendix A). The Federal agency includes the International Broadcasting
Bureau (IBB), which provides day-to-day administrative support and services, as well as two
broadcast entities—the Voice of America (VOA) and the Office of Cuba Broadcasting (OCB).
Three additional broadcast entities are private, nonprofit corporations: Radio Free Europe/Radio
Liberty (RFE/RL), Radio Free Asia (RFA), and the Middle East Broadcasting Networks (MBN).
These organizations are BBG grantees, but Congress has given the Board supervisory authorities
over them.

        The scope of U.S. Government broadcasting oversight has grown over time. The Board
for International Broadcasting (BIB) was created in 1974 to fund and oversee RFE/RL. It was
replaced with the BBG by the U.S. International Broadcasting Act of 1994. The 1994 Act
consolidated all nonmilitary U.S. Government broadcasting under the supervision of the BBG,
including the newly created IBB, which combined VOA, OCB, and the engineering and
technical services needed to support them. Both the BBG and IBB were housed within the U.S.
Information Agency (USIA). The BBG inherited oversight and grantmaking authority over
RFE/RL and acquired those same authorities for RFA (created in 1996) and MBN (created in
2003). The 1994 Act also established eight members to the Board (four Democrats and four
Republicans), which are appointed by the President and confirmed by the Senate. The ninth, the
Secretary of State, serves ex officio. With the exception of the Secretary of State, Board
members are appointed for 3-year terms. However, when Board members are appointed to fill
vacancies occurring prior to the expiration of a term, they serve the remainder of that term. By
law, any Board member whose term has expired may serve until appointment of a successor.

        The Foreign Affairs Reform and Restructuring Act of 1998, referred to hereafter as the
1998 Act, merged USIA with the Department of State (Department) and transformed the BBG
into an independent Federal entity. The 1998 Act also provided new coordinating authority to the
IBB Director. The 1998 Act expressly separated the BBG from the Department to maintain a
“firewall” to protect journalistic content from political interference. The 1998 Act also gave the
1
 Throughout this report, agency denotes the Federal entities of the BBG (Voice of America, International
Broadcasting Bureau, and the Office of Cuba Broadcasting), whereas the BBG and the Board denote the nine-
member governing body.

                                          3
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Board authority to “supervise” all broadcasting activities, modifying language from the U.S.
International Broadcasting Act of 1994, which gave the Board power to “direct and supervise.”
The U.S. Congressional Conference Report 2 explained that removal of the word “direct” was
meant to clarify that the Board is not responsible for day-to-day management, which the report
called “incongruous with a part-time oversight board.”

        Since its establishment, the BBG has guided this complex array of organizations through
a progressively more challenging worldwide media environment. The BBG is one of the world’s
largest newsgathering and reporting operations, with 50 news bureaus and offices worldwide.
The five broadcast entities it supervises employ more than 3,500 journalists, producers,
technicians, and support personnel full time in Washington, Miami, and Prague. It employs
approximately 1,500 freelancers around the world. BBG broadcasts reach an audience of 187
million in 100 countries by radio, television, and Internet. In its FY 2013 budget, the BBG
requested $720 million, a decrease of 4.2 percent from its FY 2012 budget ($750 million).

        This inspection focused on the operations of the BBG Board, including its structure,
conduct, and relationships with the entities that it oversees. The inspection did not review the
internal operations of any of the BBG broadcast entities or the IBB. The Governors on the
current Board were appointed by the President, confirmed by the Senate, and took office in July
2010. At the time of this inspection, two Governors had resigned and a third had submitted her
resignation. Also, the President has nominated someone to fill the vacant position as Chairman of
the Board. OIG previously conducted an inspection of the BBG in 2007.




2
 U.S. House Foreign Affairs and Restructuring Act of 1998 Conference Report (to accompany H.R. 1757). (H. R.
Rep. No. 105-432).

                                          4
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Executive Direction
        U.S. Government nonmilitary broadcasting is characterized by journalism of the highest
caliber and a widespread, deep devotion to its mission of support for democracy and freedom.

       In questionnaires from and personal interviews with the current Board, IBB senior staff,
the heads of the five broadcast entities, former Governors, staffs of congressional oversight
committees, and an array of outside observers, the word most commonly used to describe the
BBG was “dysfunctional.” Based on this evidence and a review of voluminous documentation
and extensive personal interviews and observation, the inspection team agrees with this
assessment.

         This dysfunction is attributable largely to the Board’s structure, internal governance
issues, and dynamics. This report describes in detail the impact of the dysfunction, including the
Board’s failure to implement key aspects of the strategic plan, unclear lines of authority, and lack
of setting priorities.

Structure
        This Board is not the first in BBG history to be considered dysfunctional. A former
Chairman of the BBG recently declared the Board system “structurally a mess.” The 1998 Act
that established the Board is based on the assumption that a part-time bipartisan board can
provide effective supervision of U.S. international broadcasting. That assumption has proved
incorrect. Further, individual Governors have interpreted this legislation in different ways.

        Another structural challenge for the Board lies in its relations with its three grantees:
RFE/RL, RFA, and MBN. These broadcast entities are not Federal organizations but rather
BBG-funded, nonprofit organizations that have their own corporate boards. Public Law 97-241
of 1982 mandated that the RFE/RL corporate board and the BIB (BBG’s precursor) have
identical memberships. RFA and MBN have adopted the RFE/RL model, although they are not
legally required to do so. As such, all grantees are subject to supervision by the same eight
Governors, each of whom performs both BBG and corporate roles. This dual functionality
creates conflicts of interest and confusion regarding Governors’ roles and responsibilities.

Strategic Supervision versus Operational Management

        Under the 1998 Act, Governors are expected to supervise all U.S. international
broadcasting activities. The management of the daily operations is the purview of the IBB
Director and the presidents of the grantees. Over time, however, individual Governors have
determined their own “fiduciary” responsibilities and acted accordingly. Inconsistent
interpretation has lead to varying and unproductive levels of Governor involvement in day-to-
day administration of the broadcast entities and has contributed to inefficiency and confusion
over roles and responsibilities and has weakened the ability of IBB staff to manage the
organization effectively.


                                       5
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        Early in its tenure, the Board had a clear sense of its duties, as evidenced in a number of
actions. It clarified lines of authority between the Board and the IBB Director and merged the
BBG and IBB staffs under the leadership of the IBB Director. The Board also set up committees
to leverage the expertise of Governors and make recommendations for the full Board’s
consideration, adopted bylaws, and opened Board meetings to the public. It delegated many
operational authorities to the IBB Director. During the Board’s second year, the Governors
completed a comprehensive review of U.S. international broadcasting, resulting in a bold, 5-year
strategic plan, “Impact Through Innovation and Integration.” The plan included a new mission
statement and called for, among other things, the consolidation and streamlining of management
and the appointment of a CEO. The Board also explored converting VOA, OCB, and IBB from
Federal agencies to private-sector, nonprofit organizations and also examined ways to minimize
language service duplication. The Board took a substantial step toward implementing its strategic
vision by deciding, in principle, to consolidate RFE, RFA, and MBN into a single organization.
These decisions represented positive steps.

        However, in the face of criticism from within and outside the organization, the Governors
have not implemented these decisions, with two Governors in particular backsliding on their
prior commitments. Instead, the Board has allowed itself to be distracted by operational issues
best handled at lower management levels and has consistently undermined the IBB Director in
the execution of his duties. By allowing its focus to slip from issues of strategic importance, the
Board fails to exploit fully its collective talents and does not meet its legislative obligation to
provide oversight of and strategic guidance to the broadcast entities.

         A prescription for improving the situation lies in the Board’s own 5-year strategic plan,
which sets forth as “imperative” that the Board attend to strategy, budget, and outreach and
create a full-time CEO to manage the agency’s day-to-day affairs. At the September Board
meeting, the Governors tasked the IBB staff to provide information about the challenges of
creating and implementing a CEO position. At the October Board meeting, the IBB briefed the
Governors on the requested information, but the Board has not moved forward on this issue. The
inspection team endorses the CEO concept, as did many individuals interviewed. The CEO
would have clear authority over the IBB and the two Federal broadcast entities but does not
address what authority the CEO would have over the three grantee organizations. The Board
would retain its obligation to safeguard the editorial independence of the broadcast entities.

        The concept of a CEO with clearly delineated authorities and responsibilities,
complemented by a part-time, Presidentially appointed board of directors focused on strategic
issues, has worked well with entities like the Millennium Challenge Corporation and the
Corporation for Public Broadcasting. A CEO would allow the Board to put the necessary focus
on these strategic concerns and keep out of day-to-day management. Whether the CEO for U.S.
international broadcasting might be appointed by the Board or nominated by the President and
confirmed by the Senate has been the subject of much Board deliberation. The inspection team
takes no position on this issue.

Recommendation 1: The Broadcasting Board of Governors should implement a chief executive
officer position as outlined in its 2012–2016 Strategic Plan, “Impact Through Innovation and
Integration.” (Action: BBG)

                                       6
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Conflict of Interest: Broadcasting Board of Governors Board and Corporate Boards

        Governors’ duties as members of the BBG Board are by nature different and sometimes
at odds with their duties as members of the corporate boards of RFE/RL, RFA, and MBN. The
statutory role of the Board is to oversee, assess, and evaluate the quality and effectiveness of
broadcasts in the context of broad U.S. foreign policy objectives and to facilitate efficient
management of public funds. Governors are subject to Federal guidelines from the Office of
Government Ethics, conflict-of-interest rules, and the Government in the Sunshine Act. While
serving on the boards of the three nonprofits, Governors have the fiduciary responsibility of
obedience, loyalty, and care. They are governed by the grantee’s articles of incorporation, the
U.S. International Broadcasting Act of 1994, and laws for the state in which the grantee was
incorporated. Most of the individuals who the inspection team interviewed said that these dual
responsibilities create a conflict of interest, as Governors serving on the corporate boards of the
grantees would have to be prepared to vote against the grantee leadership on matters that were
not in the BBG’s overall interest. For example, the OIG team documented a case in which a
Governor, sitting on the RFA corporate board as its vice chairman, advocated for the grantee
against the Board’s governance committee on which he also sits.

        The intended purpose of having BBG Governors serve as heads of corporate boards of
the grantees was to create opportunities for more substantive involvement by individual
Governors in grantees’ activities and to provide a way to take advantage of an individual
Governor’s regional or other expertise. An unintended consequence, however, is a clear
perception among the Federal entities that this dual functionality has led to advocacy and
favoritism on behalf of the grantees—especially in RFA—giving them an advantage in budget
and policy decisions of the Board. This belief was expressed to the inspection team in numerous
interviews and is especially acute in the largest of the BBG broadcast entities, VOA. This
perception is further enhanced with the current Board because a few of the Governors actually
make the time to take active roles on the three grantee boards.

        One example that emerged in numerous interviews and correspondence illustrates the
problem. The Board decided that all five broadcast entities should adopt a new content
management system called Pangea. The goals were to save money and allow all entities to share
content. RFA was on the study committee that included representatives from various BBG
entities. The committee submitted its findings to the Board, which voted to adopt Pangea.
Despite the Board’s decision, RFA refused to adopt this content system. This action was an
obvious challenge to Board authority. At present, all broadcast entities except RFA participate in
the program, and the broadly held perception—expressed repeatedly to the OIG team—is that
RFA can flout collective decisions of the Board because it can rely on strong support from the
chairman and vice chairman of its corporate board.

        The inspection team was told about another conflict of interest. Having the Governors
serve on the corporate boards of RFE/RL, RFA, and MBN in effect allows the Board to grant
money to itself and to take a more prominent role in the programmatic activity of the grantee
organizations than foreseen in legislation. The Governors, by law, do not have to serve on the
corporate boards of RFA and MBN. This dual function causes constant confusion over which
board is actually making decisions or providing oversight. Any remedy for the current

                                        7
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

arrangement with the RFE/RL board would require legislative change and is addressed in a
recommendation in the Need for Legislative Change section of this report.

Recommendation 2: The Broadcasting Board of Governors should remove Governors from the
corporate boards of Radio Free Asia and Middle East Broadcasting Networks and establish a
new mechanism for selecting corporate board members. (Action: BBG)

Challenges of a Part-Time Board: Attendance and Vacancies

        A part-time Board faces significant challenges in operating as a collective agency head.
The demands of regular Board meetings, committee meetings, and corporate board meetings
have proved overwhelming, especially for Governors who live outside the DC metropolitan area,
hold full-time jobs, and engage in other professional activities. Meetings and venues for the
coming year are put on a calendar at the start of each fiscal year, but last-minute schedule
conflicts forced the cancellation of the July 2012 meeting and nearly derailed the June, August,
and October 2012 meetings for lack of a quorum. Scheduling conflicts prevented some
Governors from attending the June and August meetings, and they participated via digital video
conference or telephone. Although overall performance records indicate that Board members
have an average attendance rate of 84 percent, these statistics are misleading. A review of
meeting minutes and observation of the June and September Board meetings revealed that
several Governors arrived late, left early, and periodically absented themselves without
explanation. One Governor has attended only 12 of the Board’s 20 meetings to date and has
participated in recent Board meetings only by telephone.

        A generally accepted obligation for being an effective Board member is to prepare for
and attend Board meetings. However, the BBG does not have an attendance policy and does not
censure or sanction Board members who do not attend Board meetings. Absent Governors
impede the Board from achieving or maintaining a quorum and, consequently, its ability to
address issues requiring action.

Recommendation 3: The Broadcasting Board of Governors should establish a policy on
meeting attendance that includes sanctions for noncompliance. (Action: BBG)

        Chronic vacancies have further hampered the Board’s ability to meet its obligations. The
Board has been fully staffed for only 7 of its 17 years of existence, and the current Governors are
serving under expired terms. All eight members of the current Board were nominated in
November 2009 and confirmed in July 2010. They replaced the four Governors remaining from
the previous Board, who had been appointed in 2002. The legislation called for staggering
Governors’ terms of office for the purpose of maintaining institutional stability and memory.
However, replacing Board members in a regular and timely fashion has been hampered by White
House delays in nominating candidates and Senate delays in confirming them. For example,
three members of the current Board resigned in 2012, and only one replacement had been
nominated as of November 1. Chronic vacancies deprive the BBG of the diversity of
perspectives envisioned by legislation and put at risk the intended political balance among Board
members.


                                       8
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Internal Governance Issues
        Since taking office in July 2010, the Board has adopted bylaws and policies to govern the
conduct of BBG business. However, these policies are self-imposed and depend upon the
willingness of individual Governors to abide by them. Based on observation, review of meeting
records, and interviews with meeting participants and stakeholders, it is clear that the Board’s
self-governance policies are inadequate to ensure the appropriate, effective, and efficient conduct
of business. Good governance requires more than bylaws and policies; it requires consistent
practices that reinforce those policies and a system of accountability to ensure adherence.

        The Board has adopted a practice of trying to reach consensus on major issues in lieu of
the statutorily mandated majority vote as stated in its bylaws. The inspection team has been told
that this practice stems from the fact that minority votes become the inspiration for blog output
and lobbying with congressional oversight committees. The reluctance of the Board to
acknowledge dissension publicly, even when the dissenting view is held by a single Governor,
creates paralysis in Board decisions. This reluctance has been reflected in the Board’s failure to
implement its strategic plan described previously. Although the Board adopted the plan
unanimously, Governors have gone on record as questioning or backpedaling on specific
elements of the plan.

        The Board fails to stand by its own decisions. One example is in the preparation of the
FY 2014 budget. The Board’s internal deadline to approve the budget was July 2012, but that
month’s meeting was canceled because of lack of a quorum. The Board held an emergency
meeting by telephone in August 2012 and unanimously approved the budget. However, entity
heads subsequently appealed to a number of the Governors to modify their decisions. The
Governors decided to revisit the budget at their September meeting, 3 days after the Office of
Management and Budget (OMB) deadline for budget submission. The Board ultimately provided
the final budget to OMB a week late. This is the third year in a row that the Board has failed to
submit its budget on time—one of its clearly delineated legislative responsibilities. It is the view
of the inspection team that this particular issue could have been avoided if the Board had
exercised better self-governance.

Meeting Management

        Board meetings are disorganized, do not follow planned schedules, and at times include
more agenda items than can be addressed in the time allotted, usually one long working day.
Without a clear demarcation between oversight and management responsibilities, the number of
issues that can attract the Board’s attention is limitless. Untouched agenda items are shunted
from one meeting to the next, or are dealt with in committees, leading to charges of
decisionmaking in the dark.

       The Board’s September 2012 meeting, which the inspection team attended and is
available in recorded version on the BBG Web site, provides a vivid example of a Board unable
to conduct business. An overambitious agenda included 17 items, only 5 of which the Board
discussed.


                                       9
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

        Procedural and ceremonial issues take up valuable meeting time that could be used to
address substantive issues. As an example, the March 2012 meeting agenda included 19 items.
Of these, seven were procedural or ceremonial; for example, adoption of meeting minutes and
resolutions honoring award winners, service anniversaries, and individual contributions to the
organization. The inspection team was told the Board had at one point agreed not to include
ceremonial items on meeting agendas, but these items continue to appear. Other March agenda
items included routine reports from entity heads and IBB staff that did not provoke Board
discussion or require Board action. These issues could have been provided to the Governors prior
to the meeting for review. Any items requiring action could be bundled together in a “consent
agenda” and voted on, as a package, without discussion. A consent agenda would enable the
Board to differentiate between routine matters not needing explanation and more complex issues
requiring examination.

Recommendation 4: The Broadcasting Board of Governors should adopt the use of a consent
agenda to address routine matters in all Board meetings. (Action: BBG)

       The Board’s bylaws outline specific responsibilities and authorities of the Board
Chairman but do not include explicit authority to maintain order at meetings, enforce the Board’s
agreed-to code of conduct, and keep the meeting focused on issues that are the clear purview of
the Board.

       Informal Recommendation 1: The Broadcasting Board of Governors should amend its
       bylaws to grant the Chairman explicit authority over the conduct and content of Board
       meetings.

Nondisclosure and Confidentiality

        Confidentiality is critical to establishing and maintaining an atmosphere of frank and
deliberate discussion. Its absence can sow mistrust among Board members and jeopardize the
Board’s effectiveness. However, breaches of confidentiality often arise when there are dissenting
opinions. To be effective, the Board should speak with one voice—dissenting opinions should be
captured in official meeting records and not aired publicly through the press or other outlets.

       As a collective agency head, the Board has an even greater responsibility to speak with
one voice in representing the views of the agency. Nine members of a collective agency head
publicly articulating inconsistent and/or divergent positions would reduce confidence in agency
decisionmaking and harm its effectiveness. But few rules govern the Governors’ public
statements—to employees, Congress, or the press. Allegations of leaks and inappropriate
information sharing are rampant within the BBG and the broadcast entities. These leaks
negatively affect the free exchange of ideas during closed Board meetings and create external
pressures on the Governors’ deliberative process.

        The Board sought to address this problem by unanimously adopting a policy in June 2012
that prohibits the disclosure of “deliberative” information. However, this nondisclosure policy
has been the subject of extensive Board debate over the course of several meetings and has even
resulted in congressional inquiry. During the September 2012 Board meeting, a Governor who

                                       10
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

actively participated in drafting the policy rescinded his approval. Although this single dissenting
vote does not repeal the policy, it does raise questions as to this particular Governor’s
commitment to the concept of confidentiality and nondisclosure and the Board’s ability to
enforce its own guidelines. The policy, like others that govern the Board, lacks a mechanism for
censuring or sanctioning Governors who violate it. The importance of such a mechanism was
underscored in a recent Governance Committee meeting when the Governor who reversed his
position on the policy repeatedly inquired about the consequences of violating the policy.

        Board meetings are conducted in accordance with the Government in the Sunshine Act (5
U.S.C. 552 b.). The Board’s nondisclosure policy clearly states that the policy does not affect the
BBG’s requirements to comply with the Sunshine Act and will be implemented in a manner
consistent with its provisions. However, the inspection team found the policy inconsistent with
the Sunshine Act in that the language of the policy does not reference specific exemptions
provided in the Sunshine Act. The “deliberative process” that is referred to in the nondisclosure
policy is language more consistent with Freedom of Information Act exemptions and not with
Sunshine Act exemptions. A simple notation of applicable Sunshine Act exemption(s) would
bring the policy in line. The most broadly and consistently applicable exemption is c(9)(B),
which allows the agency an exemption to the Act if the agency “...properly determines that such
portion or portions of its meeting or the disclosure of such information is likely to... significantly
frustrate the implementation of a proposed agency action....”

Recommendation 5: The Broadcasting Board of Governors should update and implement its
nondisclosure policy to reference relevant exemptions from the Government in the Sunshine Act
and to include sanctions for noncompliance. (Action: BBG)

Board Dynamics
        The Governors bring an array of experience and achievement to their service to U.S.
international broadcasting. They have rich backgrounds in politics, media, communications, and
foreign affairs. They began their tenure by identifying shortcomings with Board operations,
agency structure, and coordination among the elements of U.S. international broadcasting and by
adopting a strategic plan that lays out how to resolve these issues. Unfortunately, internal Board
dynamics have largely derailed their efforts to implement the plan.
        Board dynamics are characterized by a degree of hostility that renders its deliberative
process ineffectual. During the course of the inspection, the majority of individuals interviewed
firmly expressed the view that the Board’s current paralysis was the fault of a single Governor
and that the reputations of other Board members should not be damaged because of his tactics.
The inspection team’s observations and interactions with the aforementioned Governor support
this view.

       The inspection team observed the behavior of the Governor in question in Board
meetings and reviewed extensive communications between him and his Board colleagues and
IBB senior staff. In meetings, he habitually disrupts the flow of discussion with points of order,
complains of being uninformed about matters that were part of documentation presented before



                                        11
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

the meeting to all Governors, and accuses senior staff of hampering him from carrying out his
fiduciary duties by keeping important information from him.

       This Governor frequently refers to his years of experience as mayor of a city as his
compass for carrying out his fiduciary duties on the Board. He uses his knowledge of
parliamentary procedure to impede free Board discussion. He visits widely throughout the
agency, offering to bypass IBB management to assure Board attention to employee concerns.
Many accuse him of using outside media to support his views and attack colleagues and staff
who disagree.

        These may be familiar practices in municipal government politics but have side-tracked
positive collective action by the Board. Moreover, his insulting and intimidating manner, as
witnessed by the inspectors, to IBB and grantee staff creates tension and hampers productive
exchange. He styles himself “the loyal opposition,” a role that seems out of place on a bipartisan
Board acting as a collective agency head.

        To his credit, this Governor has been diligent in Board meeting attendance and has raised
important issues. For example, he brought to the Board’s attention the fact that flu shots were
being offered to direct-hire employees but not to contractors. But his interventions force Board
attention onto relatively minor issues or management decisions with which he disagrees. On
balance, his behavior has been a barrier to the Board’s ability to provide strategic guidance for
U.S. international broadcasting.

       The former Board Chairman placed emphasis on developing consensus for Board
decisions. By all accounts, he expended considerable effort in this pursuit. The presiding
Governor has continued in this general vein. However, consensus decisions are not necessary
because by statute, Board decisions must be reached by majority vote. To the extent that other
Governors have allowed the tactics of one Governor to hamstring the Board, they bear some
responsibility for its being dysfunctional.

Board Relations with International Broadcasting Bureau Staff

       The role of IBB staff is to facilitate the work of the Board and to prepare briefing
materials and Board meeting agendas, offer legal and financial advice, make travel
arrangements, and provide strategic planning information. In addition, the staff has other non-
Board obligations. A majority of the Governors are pleased with the staff’s work and dedication.
The inspection team found that the IBB senior staff is composed of seasoned professionals with a
commitment to the mission. A review of Board briefing documents and email correspondence
showed that the staff works long and often irregular hours to support the Board.

       An assessment of the relations between the Board and IBB staff must begin with the IBB
Director, appointed by the President and approved by the Senate, who has broad responsibilities,
including management of VOA and OCB on paper. The Board delegated the Director a wide
range of authorities in 2011 but promptly overrode his initiative to introduce a single content
management system (Pangea) for all broadcast entities. The Board allowed one grantee, RFA,


                                       12
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

not to take part in this initiative. This action led to the IBB Director’s authorities being
undermined in the eyes of the broadcast entities and his own staff.

        The relationship between the IBB staff and the Board is good with the exception of one
particular Governor mentioned in the previous section. For example, at the September 2012
Board meeting, the inspection team observed this Governor showing unprofessional behavior
and hostility toward the IBB staff. The inspection team reviewed email correspondence showing
that such behavior is normal for this Governor.

        At the November 2011 meeting, the Board agreed that all requests for information from
the staff should go through the IBB Director. This directive has not been followed. The
inspection team reviewed the volume and nature of requests made directly to the staff for
information from the same Governor cited previously. He asserts that he has the right to request
from the staff anything he deems necessary to fulfill his fiduciary responsibilities as he sees
them. The inspection team found that much of the information he requested was only marginally
relevant to Board strategic concerns, or was information already distributed to Governors.

         The efforts of IBB staff to prepare briefing materials for Board meetings are often in
vain. Last-minute cancelations of Board meetings provide an example of wasted staff time.
Another is the failure of a few Governors to read their briefing materials thoroughly, leading to
their raising questions to IBB staff that were already answered in the briefing materials.

        The inspection team noted that the aforementioned Governor has produced a pervasive
atmosphere of hostility, lack of trust, and disrespect within the IBB senior staff. However, it
would be unfair to ascribe these unfortunate behaviors and actions to the Board as a whole.
Indeed, mutual admiration and respect between senior staff members and several Governors
exists. Unfortunately, these Governors have not imposed discipline on their colleague.

Board Relations with Federal Broadcast Entities

        The Board’s relationships with the two Federal entities, VOA and OCB, are complicated
by the competition for resources and the desire of each entity for the greatest measure of
management control. The view from both VOA and OCB reveals a Board that is inconsistent in
the way it handles funding issues and that lacks transparency in its decisionmaking process. The
OIG team heard complaints that Board meetings take place purportedly to arrive at decisions on
broadcast issues when, in fact, decisions have already been reached.

        In response to this perception, the Board designated Governors to establish closer liaison
with the VOA and OCB. From the OIG team’s observation of two Board meetings, however, it
does not appear that the Board has achieved this goal. An example of coordination was the effort
by VOA to shift funding from shortwave broadcasting to China to more effective digital
platforms. The inspection team agrees that this sensitive issue should have been discussed
thoroughly by the Board, with an expectation that the Board would help prepare Congress for
what might look at first glance like an abandonment of the Chinese audience. Instead, individual
Board members used negative congressional response to the proposed change to claim ignorance
of the matter and launch criticism of VOA leadership.


                                        13
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

       The OIG team noted the absence of BBG direction to VOA and OCB regarding meeting
the demands of changing world media. Also lacking is any discussion of overall U.S.
Government policy priorities in relation to the world media. Without Board direction, issues are
played out in congressional committees and in public media, including very active blogs. In the
view of the inspection team, a Board of part-time government employees, regardless of their
dedication to public service, cannot successfully achieve these requirements.




                                       14
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Need for Legislative Change
        The structural issues discussed in this report will require changes in the law for
improvement to be effective and longstanding. The recommendation to create a CEO position, as
well as several other recommendations in this report, provide temporary solutions but do not
address the fundamental structural issues that plague the Board. For example, the appointment of
a CEO would not relieve the tendency of the Board to delve into operational issues or ensure that
the Board would respect the authorities vested in the CEO.

        At the January 2012 meeting, the Board authorized a working group to develop a
proposal for legislative change to the U.S. International Broadcasting Act of 1994 (as amended).
The inspection team endorses this initiative and urges the Board to pursue it vigorously. The
central goal would be to establish guidelines for Board self-governance, including enhanced
authorities for the Board Chairman and accountability for the actions of Governors. The initiative
would also include the legislative establishment of a head of agency reporting to the Board,
changes in the corporate board membership of RFE/RL, and a restatement of the Board’s duty to
provide strategic direction, safeguard journalistic integrity, and approve the agency’s budget.

Recommendation 6: The Broadcasting Board of Governors should coordinate with the Office
of Management and Budget and the Congressional Oversight Committees to formally propose
and implement new legislation for U.S. international broadcasting that includes enhancing
authority for the Board Chairman in Board governance, focusing the Board on its strategic
oversight and direction roles, changing the membership of the corporate board for Radio Free
Europe/Radio Liberty, prohibiting Governors from sitting on the corporate boards of Radio Free
Asia and Middle East Broadcasting Networks, and implementing a mechanism for censure or
removal of Governors for actions harmful to the ability of the Board to perform its duties.
(Action: BBG)




                                       15
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Board Administrative Areas
        The IBB staff provides all administrative support to the Board. This inspection did not
focus on examining IBB administrative processes and procedures in detail but rather on broad
areas in which the Governors have a responsibility to comply with Federal administrative
regulations. These areas are travel, time and attendance procedures, Equal Employment
Opportunity (EEO) and ethics, and representational funds.

Travel

         The Board spent approximately $210,000 in travel from July 1, 2010, to August 31, 2012.
This amount includes the travel vouchers of two Governors who resigned. The inspection team
reviewed travel vouchers only from 2011 to 2012 because very little travel took place in 2010.
The review revealed that some of the Governors purchase their own low-fare airline tickets in
advance, which in the majority of cases is cheaper than using the U.S. Government contract fare.
Other Governors purchased higher fare airline tickets or different class tickets (i.e., business or
first class) but asked for reimbursement only for the Government contract fare. The travel
vouchers were supported with proper receipts.

        At the July 14, 2011, Board meeting, the then Chairman called upon several Governors to
give trip reports, explaining that the BBG is a Federal agency with an international mission, and
it is important for the Governors to travel from time to time to the “front lines” to meet the
people who are touched directly by the BBG’s mission. He added that the Governors have been
very careful about travel and only make important trips with real purposes. He noted that several
Governors had taken important trips and invited those Governors to report briefly on their trips.
While the Chairman was in place, he allowed each Governor one international trip per year,
subject to his approval.

         After the departure of the Chairman, briefings on official travel became less frequent and
international trips have not been authorized by the presiding Governor. A valid purpose of travel
is to meet the employees who carry out the mission. However, without a comprehensive policy
that stipulates not only the frequency of travel but also how official trips need to support specific
strategic goals and objectives of the agency and have a quantifiable impact, the Board is unable
to determine the effectiveness of the trips.

        The OIG team’s sample review revealed that the travel vouchers of one Governor, who is
retired and has more time to devote to BBG work, stand out from those of the other Governors.
He visited the same two Asian countries in 2011 and 2012. From January to August 2012, he
made as many trips as all the other Governors combined, at a total cost of approximately
$24,000; half of this amount he spent on travel other than to Board/committee meetings.

        The BBG Board would benefit by defining in writing specific requirements for official
trips (domestic and international), including reporting and discussing outcomes and followup
actions of these trips and travel processes, such as authorization and approval of travel (i.e., by
either the Board or the Chairman). A good travel policy needs to include the use of business class


                                        16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

and processes for obtaining visas and country clearances before official travel. In doing so, the
Board would make more effective use of its travel funds and have a policy that is consistent with
Federal travel regulations.

Recommendation 7: The Broadcasting Board of Governors should implement a written
comprehensive travel policy that sets clear guidelines on all facets of official travel (domestic
and international), including the authorization and approval process, processes for visas and
country clearances, a clear statement of objectives and strategic goals in the travel authorization,
a report on impact, and followup actions. (Action: BBG)

Time and Attendance Review

        A review of Board time and attendance records showed that they are complete. The
Governors self-certify the hours they work on BBG matters. Every pay period, the timekeeper
sends the timesheet form to all the Governors via email. All Governors comply with this
requirement with the exception of one Governor. The review of time and attendance records for
this particular Governor revealed frequent late submission of timesheets, normally 4 weeks after
the pay period submission deadline. Not adhering to the timely submission of timesheets may
raise questions about the validity of the hours the Governor claims on the time and attendance
forms.

       The review also revealed that another Governor has not claimed on time and attendance
forms hours worked on BBG matters, specifically, time spent at some meetings. Any U.S.
Government employee, despite his or her part- or full-time status, may not provide service free
of charge.

       Informal Recommendation 2: The Broadcasting Board of Governors should submit
       accurate time and attendance forms by the established deadline and claim all hours
       worked on Board-related matters.

Equal Employment Opportunity and Ethics

       At the time of the inspection, the BBG Board updated the agency’s EEO statement.
Under the leadership of the current Board, the EEO statement has been updated annually and
implemented and distributed to all BBG personnel.

        The Governors are subject to General Principles of Ethical Conduct, United States Code,
Title 18-Criminal Laws and Code of Federal Regulations, Title 5, Part 2635-Administrative
Code. The Governors have submitted the required public financial disclosure reports (Standard
Form 278) and confidential financial disclosure reports (OGE Form 450). The Governors are
considered special government employees. This means that a Governor is employed for no more
than 130 days in a 365-day period from the time of his or her appointment. The number of days
that a Governor works could have significant implications on a number of ethical restrictions and
disclosures.



                                        17
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED

        In reviewing ethics documentation, the OIG team discovered that one particular Governor
had exceeded the 130-day limit in 2011 and came close to doing the same in 2012. Although he
did not lose his special government employee status by serving more than 130 days, he
jeopardized BBG’s ability to make subsequent special government employee designations in
good faith.

        During the course of the inspection, a 1-hour ethics briefing was scheduled for the
Governors during a Board meeting. However, because of the Governors’ schedule conflicts, the
Board dropped the training from the agenda and did not reschedule it. Although the annual ethics
briefing can be met by providing the Governors with a written summary of ethics rules, this
method may not be sufficient. The inspectors observed that Governors often fail to read in
advance briefing materials that IBB staff prepares for Board meetings, providing no guarantee
that Governors would read the written summary of ethics rules. An in-person ethics briefing for
the Governors would allow them to ask questions and acquire a better understanding of the
complex combination of criminal statutes, administrative regulations, and Executive Orders as
well as their proper application to specific situations.

       Informal Recommendation 3: The Broadcasting Board of Governors should schedule a
       1-hour, in-person briefing on Federal ethics rules and require all Board Governors to
       attend.

Representational Funds

        The inspection team reviewed the BBG Board’s 2010–2012 representational vouchers,
totaling $13,800. All were supported with the proper justification and authorizations.




                                      18
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Broadcasting Board of Governors should implement a chief
executive officer position as outlined in its 2012–2016 Strategic Plan, “Impact Through
Innovation and Integration.” (Action: BBG)

Recommendation 2: The Broadcasting Board of Governors should remove Governors from
the corporate boards of Radio Free Asia and Middle East Broadcasting Networks and establish a
new mechanism for selecting corporate board members. (Action: BBG)

Recommendation 3: The Broadcasting Board of Governors should establish a policy on
meeting attendance that includes sanctions for noncompliance. (Action: BBG)

Recommendation 4: The Broadcasting Board of Governors should adopt the use of a consent
agenda to address routine matters in all Board meetings. (Action: BBG)

Recommendation 5: The Broadcasting Board of Governors should update and implement its
nondisclosure policy to reference relevant exemptions from the Government in the Sunshine Act
and to include sanctions for noncompliance. (Action: BBG)

Recommendation 6: The Broadcasting Board of Governors should coordinate with the Office
of Management and Budget and the Congressional Oversight Committees to formally propose
and implement new legislation for U.S. international broadcasting that includes enhancing
authority for the Board Chairman in Board governance, focusing the Board on its strategic
oversight and direction roles, changing the membership of the corporate board for Radio Free
Europe/Radio Liberty, prohibiting Governors from sitting on the corporate boards of Radio Free
Asia and Middle East Broadcasting Networks, and implementing a mechanism for censure or
removal of Governors for actions harmful to the ability of the Board to perform its duties.
(Action: BBG)

Recommendation 7: The Broadcasting Board of Governors should implement a written
comprehensive travel policy that sets clear guidelines on all facets of official travel (domestic
and international), including the authorization and approval process, processes for visas and
country clearances, a clear statement of objectives and strategic goals in the travel authorization,
a report on impact, and followup actions. (Action: BBG)




                                        19
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Broadcasting Board of Governors should amend its bylaws
to grant the Chairman explicit authority over the conduct and content of Board meetings.

Informal Recommendation 2: The Broadcasting Board of Governors should submit accurate
time and attendance forms by the established deadline and claim all hours worked on Board-
related matters.

Informal Recommendation 3: The Broadcasting Board of Governors should schedule a 1-
hour, in-person briefing on Federal ethics rules and require all Board Governors to attend.




                                      20
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
Board of Governors

All Governors, with the exception of Secretary Clinton, were appointed on July 2, 2010.

   •   Walter Isaacson, Chairman (resigned January 27, 2012)
   •   Victor H. Ashe
   •   Hillary Rodham Clinton (ex officio), delegated authority to Under Secretary for Public
       Diplomacy and Public Affairs Tara Sonenshine
   •   Michael Lynton, presiding Governor
   •   Susan McCue
   •   Michael P. Meehan
   •   Dennis Mulhaupt
   •   Dana Perino (resigned December 31, 2012)
   •   S. Enders Wimbush (resigned May 23, 2012)




                                      21
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG               Broadcasting Board of Governors
BIB               Board for International Broadcasting
CEO               Chief executive officer
Department        U.S. Department of State
EEO               Equal Employment Opportunity
IBB               International Broadcasting Bureau
MBN               Middle East Broadcasting Networks
OCB               Office of Cuba Broadcasting
OMB               Office of Management and Budget
RFA               Radio Free Asia
RFE/RL            Radio Free Europe/Radio Liberty
USIA              U.S. Information Agency
VOA               Voice of America




                             22
                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Appendix A: Organizational Chart




Under the BBG are the five broadcast entities VOA, RFE/RL, RFA, OCB, and MBN (shown on the
left), and the administrative support agency IBB (shown on the right). Under IBB are the following:
Office of Human Resources; Office of Contracts; Office of Security; Office of Civil Rights; Office of
Policy; Office of Performance Review; Office of Chief Financial Officer; Office of the General
Counsel; Office of Strategy and Development; Office of Communication and External Affairs; Office
of Digital and Design Innovation; and Office of Technology, Services, and Innovation. Under the
Office of Technology, Services, and Innovation are the following: Chief Information Officer, Office
of Engineering & Transmission, Office of Information Technology, and Resources Management.


                                        23
                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
